        DEFENSE FINANCE AND ACCOUNTING SERVICE
          DENVER CENTER’S ACCOUNTING ENTRIES
         USED IN COMPILING THE FY 1999 AIR FORCE
          GENERAL FUND FINANCIAL STATEMENTS


Report No. D-2000-143                     June 9, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CFO                   Chief Financial Officers
DFAS                  Defense Finance and Accounting Service
DOLARS                Departmental On-Line Accounting and Reporting System
IG                    Inspector General
                       Office of the Inspector General, DoD
Report No. D-2000-143                                                      June 9, 2000
  (Project No. D2000FD-0048.001)

       Defense Finance and Accounting Service Denver Center’s
      Accounting Entries Used in Compiling the FY 1999 Air Force
                  General Fund Financial Statements

                                   Executive Summary

Introduction. Public Law 101-576, the Chief Financial Officers Act of 1990,
November 15, 1990, as amended by Public Law 103-356, the Federal Financial
Management Act of 1994, October 13, 1994, requires DoD to submit to the Office of
Management and Budget annual financial statements that have been audited by the
Inspector General, DoD. This is the second of two reports on the FY 1999 Air Force
General Fund financial statements. The first report was Report No. D-2000-084,
“Inspector General, DoD, Oversight of the Air Force Audit Agency Audit of the
FY 1999 Air Force General Fund Financial Statements,” February 14, 2000.

Objectives. The original objective of the audit was to determine whether the Defense
Finance and Accounting Service Denver Center, Denver, Colorado, consistently and
accurately compiled data from field activities and other sources for the FY 1999
Air Force General Fund financial statements. However, we limited our review to an
examination of the accounting entries made by the DFAS Denver Center in the Chief
Financial Officers Reporting System. We also reviewed internal controls and
compliance with laws and regulations related to those accounting entries. These
objectives were previously announced under Project No. 0FD-2111. See Appendix A
for a discussion of the audit scope and methodology and our review of the management
control program and for Internet addresses of prior audits.

Results. The Defense Finance and Accounting Service Denver Center made
$1.2 trillion of accounting entries of which $66.6 billion were not fully supported and
$20.2 billion were not properly approved. These conditions represent a material
management control weakness that could affect the accuracy of the Air Force financial
statements and accounting records. For details of the audit results, see the Finding
section of the report. See Appendix A for details on the management control program
as it relates to controls over accounting entries.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service Denver Center, fully implement the provisions of applicable
directives for accounting entries by providing adequate supporting documentation,
researching and reconciling differences between two or more sources, and obtaining
approval by the appropriate authority.

Management Comments. The Director, Defense Finance and Accounting Service
Denver Center, did not comment on the draft report. Therefore, we request that the
Director, Defense Finance and Accounting Service Denver Center, provide comments
on the final report by July 10, 2000.
Table of Contents

Executive Summary                      i


Introduction
     Background                        1
     Objectives                        2

Finding
     Accounting Entries                3

Appendixes
     A. Audit Process
         Scope                        11
         Methodology                  12
         Management Control Program   12
         Prior Coverage               13

     B. Report Distribution           14
Background
    Public Law 101-576, the Chief Financial Officers Act of 1990 (the CFO Act),
    as amended by the Federal Financial Management Act of 1994, requires the
    Inspector General (IG), DoD, or an independent auditor appointed by the IG,
    DoD, to audit the financial statements of DoD reporting entities. We delegated
    the audit of the FY 1999 Air Force General Fund consolidated financial
    statements to the Air Force Audit Agency. The Defense Finance and
    Accounting Service (DFAS) Denver Center, Denver, Colorado, maintains
    records for the Department of the Air Force and prepared the FY 1999
    Air Force General Fund financial statements from data submitted by the
    Air Force and other DoD organizations.

    The DFAS Denver Center provides accounting services and prepares financial
    statements for the Air Force General Fund. The components of the Air Force
    General Fund submit accounting data to the DFAS Denver Center for
    preparation of the financial statements and other reporting. The FY 1999
    Air Force General Fund financial statements reported total assets of
    $86.9 billion and a total net cost of operations of $91.3 billion.

    Most accounting data used to compile the Air Force General Fund financial
    statements comes from transfers of budgetary data from Air Force bases,
    Air Force major commands, and DFAS Operating Locations. The DFAS
    Denver Center uses the Departmental On-Line Accounting and Reporting
    System (DOLARS) to consolidate these data and prepare Air Force-level
    budgetary reports. DOLARS uses budget identifier codes, rather than a
    standard general ledger account structure, to record financial activity.

    Before the Air Force General Fund financial statements are prepared, an
    automated interface transfers budgetary data from the DOLARS to the Chief
    Financial Officers (CFO) Reporting System. The budgetary data from the
    DOLARS are run against a table of posting rules, which converts the budget
    identifier codes to double-entry accounting transactions. The CFO Reporting
    System uses these transactions to populate the proprietary and budgetary general
    ledger accounts.

    Additional data come from sources that do not interface with the CFO Reporting
    System. These sources include property management systems, logistics
    systems, reports from other DFAS Centers, reports from Air Force financial
    management and legal activities, and reports from other Government entities.

    In preparing the FY 1999 Air Force General Fund financial statements, the
    DFAS Denver Center processed 452 accounting entries valued at more than
    $1.2 trillion in the CFO Reporting System.




                                       1
Objectives
     The original objective of the audit was to determine whether the Defense
     Finance and Accounting Service Denver Center, Denver, Colorado, consistently
     and accurately compiled data from field activities and other sources for the
     FY 1999 Air Force General Fund financial statements. However, we limited
     our review to examining the accounting entries made by the DFAS Denver
     Center in the CFO Reporting System. We also reviewed internal controls and
     compliance with laws and regulations related to those accounting entries. We
     reviewed the adequacy of the management control program as it applied to the
     audit objectives. See Appendix A for a discussion of the scope and
     methodology and the results of our review of the management control program.




                                       2
           Accounting Entries
           The DFAS Denver Center made $1.2 trillion of accounting entries, of
           which $66.6 billion were not fully supported and $20.2 billion were not
           properly approved. These conditions occurred because:

                  •    supporting documentation was incomplete, missing, or did not
                       support the amount of the accounting entry,

                  •    the accounting entries violated generally accepted accounting
                       principles, and

                  •    DFAS Denver Center personnel did not always obtain the
                       appropriate level of review for the accounting entries.

           These conditions represent a material management control weakness that
           affect the accuracy of the Air Force financial statements and accounting
           records.

Guidance on Financial Reporting
    DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
    volume 6A, “Reporting Policy and Procedures,” February 1996, with changes
    through January 1998, provides guidance on the roles and responsibilities of
    DFAS and its customers regarding financial reports and the treatment of
    transactions from which the financial data in the reports are derived. This
    guidance requires DFAS to adequately support, and justify in writing, any
    adjustments to official accounting records and states that:
           The documentation shall include the rationale and justification for the
           adjustment, the detail numbers and dollar amounts of errors or conditions
           that are related to the transactions or records that are proposed for
           adjustment, the date of the adjustment, and the name and position of the
           individual approving the adjustment. The documentation also shall be
           sufficient to provide an audit trail to the detail transaction(s) being adjusted
           or corrected.

    The DFAS Denver Center uses journal vouchers to document the nature of and
    approval for accounting entries made by accountants to data in the CFO
    Reporting System. Automated controls in the CFO Reporting System prevent
    unapproved journal vouchers from affecting the general ledger. A journal
    voucher is not posted to the general ledger until it is approved by either the
    Air Force General Fund Team Chief or the Chief, Office of CFO Procedures
    and Reporting. When the journal voucher has been approved, it is posted to the
    CFO Reporting System general ledger.

    On October 28, 1999, the Director for Accounting, DFAS, issued a
    memorandum, “Journal Voucher Guidance,” establishing guidance for the
    preparation and supervisory review of journal vouchers.


                                               3
     The memorandum required the following supporting documentation for journal
     vouchers prepared to correct errors identified during preparation and review of
     financial reports:
             Identified errors and reasonableness checks.            When the proper
             authoritative source has determined through analysis, reasonableness
             checks, or quality control procedures that the source data provided cannot
             be justified, a correcting journal voucher must be prepared. Evidence to
             support this type of journal voucher includes a detailed listing of the errors
             identified, related analysis documenting the correct amount, and when
             available, supporting documentation from the source of the data. In
             addition, the journal voucher must document why the error occurred and
             how the proper authoritative source determined that the entries included on
             the journal voucher are correct.

             Certified balance that disagrees with the statement balance. When the
             proper authoritative source has determined that there is a discrepancy in
             data between two or more sources, a correcting journal voucher must be
             prepared. Evidence to support this type of journal voucher includes source
             data documentation and related analysis documenting the correct amount.
             In addition, the journal voucher must document why there was a
             discrepancy in the source data amounts and how the proper authoritative
             source determined that the entries included on the journal voucher are
             correct.

     The memorandum also established thresholds for approval of journal vouchers,
     as shown in Table 1.

                   Table 1. Approval Thresholds for Journal Vouchers


     Threshold               Dollar Amount                       Approving Official

         1               Less than $100 Million            Team Chief, General Funds
         2               $100 – $500 Million               Chief, Office of CFO Procedures
         3               $500 - $1 Billion                 Deputy Director for Accounting
         4               More than $1 Billion              DFAS Center Director

     The memorandum also required that before submission of each version of the
     financial statements, the DFAS Center’s Director for Accounting shall review
     all journal vouchers to determine whether approval thresholds were met, and if
     not, to obtain approvals; and the DFAS Center’s Director for Accounting shall
     review all reversing journal vouchers to determine whether they are correctly
     prepared, documented, reviewed, processed, and approved.

Categories of Accounting Entries
     During FY 1999, the DFAS Denver Center made 452 accounting entries
     totaling $1.2 trillion. These accounting entries were related to 12 different


                                                4
categories. Many accounting entries were required because feeder systems did
not provide the data needed. Table 2 shows the categories of accounting entries,
the number of accounting entries made for each category, and the total dollar
amount for each category.

                         Table 2. Accounting Entries


                                        Number of                 Amount
Category of Accounting Entry         Accounting Entries         (in billions)


Posting of budgetary data                   27                   $ 313.7
Reversal of budgetary data                  27                     313.7
Correcting errors in posting logic          32                     110.5
Reversal of prior year
   accounting entries                       33                      172.7
Reversal of current year
   accounting entries                       23                       29.5
Prior period adjustments                    13                       25.0
Reallocation                                73                        3.7
Correct status of funds                      6                         .1
Posting off-line data                       50                       40.6
Depreciation                                11                         .9
Reclassification                           104                      202.0
Other                                       53                       10.4

     Total                                 452                  $1,222.8

Posting of Budgetary General Ledger Accounts. Before September 1999, the
CFO Reporting System did not automatically post transactions to the budgetary
general ledger accounts. This limitation required that accounting entries be
prepared to input data from the SF 133, Report on Budget Execution, into the
budgetary general ledger accounts. The CFO Reporting System automatically
prepared these accounting entries based on amounts in the Reports on Budget
Execution. In FY 1999, the CFO Reporting System automatically prepared 27
accounting entries, totaling $313.7 billion, to post accounting data to the
budgetary general ledger accounts. These accounting entries were prepared to
allow the DFAS Denver Center to produce interim financial statements for the
Air Force General Fund. These entries were reversed in September 1999 to
remove the effect of the original entries from the accounting records. As a
result, these entries did not affect the FY 1999 Air Force General Fund
accounting records.

In September 1999, the CFO Reporting System’s posting rules were updated to
automatically post the accounting data to the budgetary general ledger accounts,
eliminating the need for accounting entries to input the data into the general
ledger.




                                       5
Correcting Errors in Posting Logic. Because of errors in the logic used to
convert some budget identifier codes to double-entry accounting transactions in
the CFO Reporting System, data were posted incorrectly, and the DFAS Denver
Center had to make adjusting accounting entries to change amounts posted by
the automatic interface to the correct account.

To correct posting errors, the DFAS Denver Center prepared 32 adjusting
accounting entries in the CFO Reporting System, totaling $110.5 billion.
Reprogramming the CFO Reporting System to correct these errors would
eliminate the need for these adjusting accounting entries and reduce the risk of
misstatement.

Reversals of Prior Year Accounting Entries. To reverse accounting entries
prepared in FY 1998, the DFAS Denver Center prepared 33 accounting entries
in the CFO Reporting System, totaling $172.7 billion. These reversals were
made to remove the effects of prior year adjustments from the current year’s
accounting records. Of the 33 accounting entries, 24 reversed FY 1998
accounting entries that reallocated undistributed collections and disbursements
among Government and public accounts receivable and accounts payable; 4
reversed FY 1998 accounting entries that inputted off-line data; 4 reversed
FY 1998 accounting entries that eliminated intra-Governmental transactions; and
1 reversed an entry to correct detail data in DOLARS.

Reversals of Current Year Accounting Entries. To reverse previous FY 1999
accounting entries, the DFAS Denver Center prepared 23 accounting entries in
the CFO Reporting System, totaling $29.5 billion. Of these 23 entries, 17
reversed reclassification entries, 3 reversed the effects of duplicate entries, 1
reversed a midyear adjustment, 1 revised the property, plant, and equipment
amount, and 1 reversed entries previously made to correct errors in posting
logic in the CFO Reporting System. These errors were subsequently corrected,
and the original accounting entries were no longer required.

Prior Period Adjustments. Prior period adjustments are entries made directly
to equity to correct errors in prior accounting periods. The DFAS Denver
Center prepared 13 prior period adjustment accounting entries in the CFO
Reporting System, totaling $25 billion. All of the accounting entries were
prepared to adjust accounts associated with physical assets and capital leases.
Two of the adjustments recorded changes to fixed assets that were attributable to
prior period activity, but were reported to the DFAS Denver Center in the
current period; seven recognized depreciation expense in the proper period; and
four recognized inventory gains and losses in the proper period.

Reallocations. The DFAS Denver Center prepared 73 accounting entries in the
CFO Reporting System, totaling $3.7 billion, to reallocate undistributed
collections, undistributed disbursements, and sales transactions among general
ledger subaccounts. These reallocation entries were required because some data
submitted to the DFAS Denver Center did not identify the entity with which the
transaction was made. The reallocation entries prorated the total amount of
transactions with unidentified parties among Government and public customers
and suppliers of the Air Force General Fund, based on the ratio of transactions
in which the entities were identified.


                                    6
Correcting Status of Funds. The DFAS Denver Center prepared
six accounting entries in the CFO Reporting System, totaling $73.3 million to
correct data extracted from the Status of Funds System.

Data extracted from the Status of Funds System did not include all adjusting
accounting entries made by the DFAS Denver Center. As a result, data
extracted from the Status of Funds System were not accurate, which required the
DFAS Denver Center to make accounting entries to correct the data from the
Status of Funds System.

Posting Off-Line Data. The DFAS Denver Center prepared 50 accounting
entries for $40.6 billion to post accounting data that did not flow through the
automated systems. These data were provided to the DFAS Denver Center from
a variety of sources, including the Assistant Secretary of the Air Force
(Financial Management), the Office of Personnel Management, other DoD
entities, and the Air Force Legal Services Activity. As a result, the DFAS
Denver Center was required to prepare accounting entries in the CFO Reporting
System to ensure that the data were included in the financial statements

Depreciation. DoD Regulation 7000.14-R requires DoD to depreciate
capitalized assets. Depreciation recognizes the allocation of the cost or value of
property, plant, and equipment as an operating expense over the periods in
which the assets are expected to provide benefits. Depreciation is computed
over an asset’s estimated useful life using the capitalized amount (cost or value)
of an asset minus its residual value. Residual value is the estimated amount that
is expected to be recovered from the asset’s disposal. Depreciation is recorded
in an accounting entry at the end of each reporting period.

An asset leased under terms that are equivalent to an installment purchase is
called a capital lease. A capital lease is a lease contract that transfers
substantially all the risks and benefits of ownership in the leased asset from the
lessor to the lessee. Like most capital assets, depreciation expense is recognized
on a capital lease. Capital leases may be depreciated over the lease term or the
economic life of the asset.

Land improvements are depreciable assets; however, for accounting purposes,
land is not subject to depreciation.

The DFAS Denver Center prepared 11 accounting entries in the CFO Reporting
System, totaling $925.4 million, to record depreciation for FY 1999. These
accounting entries included three adjustments for land improvements, four
adjustments for buildings, two adjustments for structures and facilities, and one
adjustment each for military equipment and capital lease accounts.

Reclassifications. The Denver DFAS Center prepared 104 accounting entries
in the CFO Reporting System, totaling $202 billion, to reclassify transactions
recorded during FYs 1998 and 1999. Reclassification adjustments are prepared
to correct posting errors. DFAS Denver Center gave the following reasons for
preparing reclassifications:




                                     7
           •     to assign a sales code or to assign or match a trading partner for
                 elimination purposes,

           •     to correct posting errors,

           •     to force account balances to agree with data from DOLARS, and

           •     for presentation on the financial statements.

    Of the 104 accounting entries prepared for reclassification, 55 were prepared for
    elimination purposes, 34 were prepared to correct posting errors, 10 were
    prepared to force balances to agree with DOLARS, and 5 were prepared to
    reclassify accounts for presentation on the financial statements.
    Integrating Air Force accounting information systems would reduce the number
    of journal vouchers required to properly classify data.

Supporting Documentation
    Most of the accounting entries prepared by the DFAS Denver Center for the
    CFO Reporting System were adequately supported and accurately described the
    purpose of the entry. However, 89 accounting entries, totaling $66.6 billion,
    were not fully supported.

    Table 3 shows the categories of the accounting entries that were not fully
    supported, the number of accounting entries made for each category, and the
    total dollar amount for each category.

                           Table 3. Supporting Documentation

                                           Number of                     Amount
    Category of Accounting Entry        Accounting Entries             (in billions)


    Incomplete documentation                      72                      $ 55.7
    Documentation did not
       support entry                              15                        10.6
    Entry violated generally
       accepted accounting principles             2                            .3

         Total                                    89                       $66.6

            Incomplete Documentation. Documentation was incomplete and did
    not fully support the reasons for 72 accounting entries, totaling $55.6 billion,
    made by the DFAS Denver Center. Examples follow.

           The DFAS Denver Center prepared six accounting entries totaling
    $7.8 billion to adjust buyer’s side data to match seller’s side data. These I


                                              8
    adjustments were made in accordance with DFAS policy; however, the
    supporting documentation did not explain the discrepancy between the buyer’s
    side and seller’s side records.

            The DFAS Denver Center prepared an accounting entry for $36.6 billion
    to adjust the equity accounts to match what was reported on the Statement of
    Budgetary Resources. The supporting documentation did not explain the
    discrepancy between the amount reported on the Statement of Budgetary
    Resources and the accounting records.

            The supporting documentation for 10 accounting entries totaling
    $5.8 billion, prepared to revise accounting data received from field activities,
    did not state what additional data were received from the field activities and how
    they differed from the data originally submitted.
           Documentation for Accounting Entries. Supporting documentation
    was present but did not support 15 accounting entries totaling $10.6 billion.
    Examples follow.

            The DFAS Denver Center prepared two accounting entries totaling
    $6.3 billion with documentation supporting an entry that was the opposite of the
    entry that was made. The two entries debited accounts that should have been
    credited and credited accounts that should have been debited.

            The DFAS Denver Center prepared an entry for $2.6 billion to correct a
    misclassification of Operating Materials and Supplies. The supporting
    documentation stated that the entry was prepared to move an amount originally
    posted to Operating Materials and Supplies Held for Use to Operating Materials
    and Supplies – Excess, Obsolete, and Beyond Repair. However, the entry did
    not correct the misclassification; instead, it reversed the original entry without
    reclassifying the amount.

            Generally Accepted Accounting Principles. The DFAS Denver Center
    prepared two accounting entries totaling $346.7 million that violated generally
    accepted accounting principles. The two entries were prepared to reverse
    entries made in the previous fiscal year. One component of each of the entries
    prepared in FY 1998 was an increase to an expense account. At the end of
    FY 1998, the expense accounts were closed to equity, resulting in a decrease to
    equity. Each reversing entry incorrectly included a reduction to expense
    accounts. Because the expense accounts were closed to equity at the end of FY
    1998, the correct reversing entry would have included a transaction increasing
    equity, rather than a transaction decreasing expenses.

Supervisory Review
    The DFAS Denver Center did not obtain the proper level of supervisory
    approval for five accounting entries valued at $20.2 billion. Each of these
    entries was approved, but not at the supervisory level established by DFAS
    headquarters. Four accounting entries of more than $1 billion each were not



                                         9
    approved by the Director, DFAS Center, and an accounting entry between
    $500 million and $1 billion was not approved by the Deputy Director for
    Accounting.

    DFAS Denver Center officials believed that they had the final authority to
    change previously approved accounting entries by transferring amounts among
    subaccounts of the same general ledger account.

Summary
    Accounting entries are needed to input data not provided by automated systems,
    to post and reverse closing entries, to make prior period adjustments, and to
    correct errors. The DFAS Denver Center did not always fully support or
    clearly explain accounting entries. In addition, DFAS Denver Center personnel
    did not always obtain the appropriate level of approval for accounting entries.
    The guidance for accounting entries is clear, appropriate, and needs to be fully
    implemented by the DFAS Denver Center.

Recommendations
    We recommend that the Director, Defense Finance and Accounting Service
    Denver Center, fully implement, for accounting entries, the applicable
    provisions of DoD Regulation 7000.14-R, “DoD Financial Management
    Regulation,” volume 6A, “Reporting Policy and Procedures,” January 1998,
    and the memorandum issued by the Director for Accounting, Defense Finance
    and Accounting Service, “Journal Voucher Guidance,” October 28, 1999, by:

           1. Providing adequate explanation and supporting documentation for all
    accounting entries.

            2. Researching and reconciling differences between two or more sources
    and providing documentation that includes the reasons for the differences and
    verification that the entries are correct.

           3. Obtaining approval of all accounting entries by the appropriate
    authority.

Management Comments Required
    The Director, Defense Finance and Accounting Service Denver Center, did not
    comment on a draft of this report. Therefore, we request that the Director,
    Defense Finance and Accounting Service Denver Center, provide comments on
    the final report by August 15, 2000.




                                       10
Appendix A. Audit Process

Scope
    Work Performed. We reviewed support for 452 accounting entries totaling
    $1.2 trillion that the DFAS Denver Center made to Air Force General Fund
    accounting records for FY 1999 in the CFO Reporting System. We also
    reviewed these adjustments to determine whether they were properly approved.

    DoD-Wide Corporate-Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate-level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following goal, subordinate performance goal, and performance measures:

           •   FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain
               future by pursuing a focused modernization effort that maintains U.S.
               qualitative superiority in key warfighting capabilities. Transform the
               force by exploiting the Revolution in Military Affairs, and reengineer
               the Department to achieve a 21st century infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and financial systems. (01-DoD-2.5.1)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           •   Financial Management Area. Objective: Strengthen internal
               controls. Goal: Improve compliance with the Federal Managers’
               Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.




                                       11
Methodology
    Use of Computer-Processed Data. We relied on computer-processed data from
    the CFO Reporting System, which processes accounting data for the Air Force
    General Fund. We did not evaluate the general and application controls of the
    CFO Reporting System because the process for preparing and approving
    accounting entries at the DFAS Denver Center is primarily a manual process.
    Not evaluating the controls did not affect the results of the audit.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from October 1999 through February 2000 in accordance with audit standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We included tests of management controls considered
    necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40 “Management Control (MC)
    Program Procedures,” require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the DFAS Denver Center’s management controls over approval of
    and support for accounting adjustments. We also reviewed management’s
    self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined in DoD Instruction 5010.40. Management
    controls at the DFAS Denver Center were not adequate to ensure that all
    accounting adjustments were adequately supported and properly approved. The
    recommendation, if implemented, will improve the controls over the process for
    making accounting entries. We will provide a copy of the report to the senior
    official in charge of management controls at the DFAS Denver Center.

    Adequacy of Management’s Self-Evaluation. The DFAS Denver Center
    identified controls over the preparation of financial statements as an assessable
    unit, but did not identify controls over accounting entries as an assessable unit.
    The DFAS Denver Center evaluated the preparation of financial statements and
    controls over accounting entries. In its evaluations, the DFAS Denver Center
    did not identify material weaknesses related to controls over accounting entries
    identified by the audit, because their review was not sufficiently detailed to



                                        12
    identify those weaknesses. In its Annual Statement of Assurance, the DFAS
    Denver Center reported the material weakness related to not implementing the
    U.S. Standard General Ledger at the transaction level.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil.




                                      13
 Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Comptroller (Program/Budget)
  Deputy Chief Financial Officer
     Director, Accounting Policy
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Denver Center
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  Accounting and Information Management Division
      Defense Financial Audits, Denver
  National Security and International Affairs Division
      Technical Information Center




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       15
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report.

F. Jay Lane
Salvatore D. Guli
Brian M. Flynn
Byron B. Harbert
Mark A. Ives
Lari Sue Hoogland
Susanne B. Allen
